No.

3fn Wyt

Supreme Court of tjje ®mteb States
Kenneth A. Pruitt,
Petitioner,
v.
Joseph Robinette Biden Jr., acting alone, or in concert, in a
purported official capacity; John Forbes Kerry, acting alone
or in concert, in a purported official capacity; United States
(U.S.) Department of Treasury, acting alone, or in concert;
U.S. Environmental Protection Agency, acting alone, or in
concert; U.S. National Institute of Environmental Health
Sciences; acting alone, or in concert; Michael Regan, head of
EPA; Richard Woychik, head of NEIHS, and Janet Yellen,
head of USDT; Heads of USDT, EPA, and NIEHS unnamed
for 2021 and later due election transition, said heads named
individually in his/her official capacity and when not acting in
his/her official capacity but acting ultra vires, acting either
alone or with unknown and unnamed other persons
improperly causing violations of U.S. domestic law referenced
within 2006 U.S. entry to 2003-31-OCT MERIDA UNITED
NATIONS CONVENTION AGAINST CORRUPTION
(UNCAC) and/or violate UNCAC,
Respondents.
On Petition for a Writ of Certiorari to review denial
by Court of Appeals for the Fifth Circuit
of a colorable constitutional claim

APPENDIX
Kenneth A. Pruitt, pro se
Trailer Village RV Park
16580 N. US Hwy 59
Garrison, Texas 75946
(936) 714-3811
kap8063@yahoo.com

APPENDIX
Exhibit 1: June 15, CA5 three-judge panel order
denying Petitioner’s emergency motion.................. A1
Exhibit 2: September 13, CA5 three-judge panel
order which granted motion to dismiss for lack of
jurisdiction filed by Respondent Government’s
counsel and denied Petitioner’s motion for a
restraining order........................................................... A2
Exhibit 3: 1997 Senate Resolution 98 (with ‘yea’
votes by Biden and by Kerry).................................

A3

Exhibit 4: Principles of Ethical Conduct for
Government Officers and Employee..............

A9

Exhibit 5: Adjudicative Facts for which Petitioner
requests Rule 201(c)(2) Judicial Notice
A12
Exhibit 6: (Draft) ORDER FOR INJUNCTIVE
RELIEF ...................................................................

A19

A1
Exhibit 1
UNITED STATES COURT OF APPEALS
FIFTH CIRCUIT
OFFICE OF THE CLERK
June 15, 2021
MEMORANDUM TO COUNSEL OR PARTIES
LISTED BELOW:
No. 21-40310
Pruitt v. Biden
USDC No. 9:21-CV-13
Enclosed is an order entered in this case.
Sincerely,
Lyle W. Cayce, Clerk
By: /si Christina C. Rachal. Deputy Clerk

Appeal from the United States District Court for the
Eastern District of Texas
USDC No. 9:21-CV-13
Before Stewart, Graves, and Higginson, Circuit
Judges.
Per Curiam:
IT IS ORDERED that Appellant’s emergency motion
is DENIED.

A2

Exhibit 2
FILED: September 13, 2021
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
KENNETH ALLEN PRUITT,
Plaintiff-Appellant,
versus
JOSEPH ROBINETTE BIDEN, et al.,
Defendants-Appellees.

Appeal from the United States District Court for the
Eastern District of Texas
USDC No. 9:21-CV-13

Before Smith, Higginson, and Willett, Circuit
Judges.
Per Curiam:
IT IS ORDERED THAT Appellee’s opposed motion
to dismiss the appeal for lack of jurisdiction is
GRANTED.
IT IS FURTHER ORDERED that Appellant’s motion
for a restraining order is DENIED.

A3

Exhibit 3
1997 Senate Resolution 98 (with ‘yea’ votes by
Biden and by Kerry)
https://www.congress.gov/bill/105th-congress/senateresolution/98/text
IN THE SENATE OF THE UNITED STATES
July 25, 1997
Mr. Byrd (for himself, Mr. Hagel, Mr. Hollings, Mr.
Craig, Mr. Inouye, Mr. Warner, Mr. Ford, Mr.
Thomas, Mr. Dorgan, Mr. Helms, Mr. Levin, Mr.
Roberts, Mr. Abraham, Mr. McConnell, Mr. Ashcroft,
Mr. Brownback, Mr. Kempthorne, Mr. Thurmond,
Mr. Burns, Mr. Conrad, Mr. Glenn, Mr. Enzi, Mr.
Inhofe, Mr. Bond, Mr. Coverdell, Mr. DeWine, Mrs.
Hutchison, Mr. Gorton, Mr. Hatch, Mr. Breaux, Mr.
Cleland, Mr. Durbin, Mr. Hutchinson, Mr. Johnson,
Ms. Landrieu, Ms. Mikulski, Mr. Nickles, Mr.
Santorum, Mr. Shelby, Mr. Smith of Oregon, Mr.
Bennett, Mr. Faircloth, Mr. Frist, Mr. Grassley, Mr.
Allard, Mr.Murkowski, Mr. Akaka, Mr. Coats, Mr.
Cochran, Mr. Domenici, Mr. Gramm, Mr. Grams,
Mr. Lott, Ms. Moseley-Braun, Mr. Robb, Mr.
Rockefeller, Mr. Sessions, Mr. Smith of New
Hampshire, Mr. Specter, Mr. Stevens, Mr. Lugar,
Mr. Reid, Mr. Bryan, Mr. Thompson, and Mr.
Campbell) submitted the following resolution; which
was referred to the Committee on Foreign Relations
July 21, 1997
Reported by Mr. Helms, without amendment
July 25, 1997

J

A4

Considered and agreed to

RESOLUTION
Expressing the sense of the Senate regarding the
conditions for the United States becoming a
signatory to any international agreement on
greenhouse gas emissions under the United Nations
Framework Convention on Climate Change.
Whereas the United Nations Framework Convention
on Climate Change (in this resolution referred to as
the "Convention”), adopted in May 1992, entered
into force in 1994 and is not yet fully implemented;
Whereas the Convention, intended to address
climate change on a global basis, identifies the
former Soviet Union and the countries of Eastern
Europe and the Organization For Economic Co­
operation and Development (OECD), including the
United States, as “Annex I Parties”, and the
remaining 129 countries, including China, Mexico,
India, Brazil, and South Korea, as "Developing
Country Parties”;
Whereas in April 1995, the Convention’s “Conference
of the Parties” adopted the so-called "Berlin
Mandate”;
Whereas the "Berlin Mandate” calls for the
adoption, as soon as December 1997, in Kyoto,
Japan, of a protocol or another legal instrument that
strengthens commitments to limit greenhouse gas
emissions by Annex I Parties for the post-2000

J

A5

period and establishes a negotiation process called
the “Ad Hoc Group on the Berlin Mandate”;
Whereas the “Berlin Mandate” specifically exempts
all Developing Country Parties from any new
commitments in such negotiation process for the
post-2000 period;
Whereas although the Convention, approved by the
United States Senate, called on all signatory parties
to adopt policies and programs aimed at limiting
their greenhouse gas (GHG) emissions, in July 1996
the Undersecretary of State for Global Affairs called
for the first time for “legally binding” emission
limitation targets and timetables for Annex I
Parties, a position reiterated by the Secretary of
State in testimony before the Committee on Foreign
Relations of the Senate on January 8, 1997;
Whereas greenhouse gas emissions of Developing
Country Parties are rapidly increasing and are
expected to surpass emissions of the United States
and other OECD countries as early as 2015;
Whereas the Department of State has declared that
it is critical for the Parties to the Convention to
include Developing Country Parties in the next steps
for global action and, therefore, has proposed that
consideration of additional steps to include
limitations on Developing Country Parties’
greenhouse gas emissions would not begin until after
a protoco or other legal instrument is adopted in
Kyoto, Japan in December 1997;

A6

Whereas the exemption for Developing Country
Parties is inconsistent with the need for global action
on climate change and is environmentally flawed;
Whereas the Senate strongly believes that the
proposals under negotiation,
because of the disparity of treatment between
Annex I Parties and Developing Countries and
the level of required emission reductions,
could result in serious harm to the United
States economy, including significant job loss,
trade disadvantages, increased energy and
consumer costs, or any combination thereof;
and
Whereas it is desirable that a bipartisan group of
Senators be appointed by the Majority and Minority
Leaders of the Senate for the purpose of monitoring
the status of negotiations on Global Climate Change
and reporting periodically to the Senate on those
negotiations: Now, therefore, be it
Resolved, That it is the sense of the Senate that-(1) the United States should not be a
signatory to any protocol to, or other
agreement regarding, the United Nations
Framework Convention on Climate Change of
1992, at negotiations in Kyoto in December
1997, or thereafter, which would—
(A) mandate new commitments to
limit or reduce greenhouse gas emissions for
the Annex I Parties, unless the protocol or
other agreement also mandates new specific
scheduled commitments to limit or reduce

A7

greenhouse gas emissions for Developing
Country Parties within the same compliance
period, or
(B) would result in serious harm to
the economy of the United States; and
(2) any such protocol or other agreement
which would require the advice and consent of the
Senate to ratification should be accompanied by a
detailed explanation of any legislation or regulatory
actions that may be required to implement the
protocol or other agreement and should also be
accompanied by an analysis of the detailed financial
costs and other impacts on the economy of the
United States which would be incurred by the
implementation of the protocol or other agreement.
Sec. 2. The Secretary of the Senate shall transmit a
copy of this resolution to the President.
Sponsor:
Sen. Byrd. Robert C. IPWV~| (Introduced 06/12/1997)
Committees:

Senate - Foreign Relations

Committee Reports: S. Rent. 105-54
Latest Action:

Senate - 07/25/1997
Resolution agreed to in
Senate without amendment
and with a preamble by YeaNay Vote. 95-0. Record Vote
No: 205. (All Actions)

Roll Call Votes:

There has been 1 roll call
vote

Alphabetical by Senator Name (other names
redacted)

A8

Biden (D-DE), Yea
Kerry (D-MA), Yea

A9

Exhibit 4
https://ethics.od.nih.gov/principles-ethical-conductgovernment-officers-and-employees
Principles of Ethical Conduct for Government
Officers and Employees
The following Principles of Ethical Conduct are an
excerpt from Executive Order 12674 of April 12,
1989, as modified by Executive Order 12731. These
Principles apply to all employees of the Federal
Government.
Part I-Principles of Ethical Conduct
Section 101. Principles of Ethical Conduct. To
ensure that every citizen can have complete
confidence in the integrity of the Federal
Government, each Federal employee shall respect
and adhere to the fundamental principles of ethical
service as implemented in regulations promulgated
under sections 201 and 301 of this order:
1. Public service is a public trust, requiring
employees to place loyalty to the
Constitution, the laws, and ethical
principles above private gain.
2. Employees shall not hold financial
interests that conflict with the
conscientious performance of duty.
3. Employees shall not engage in financial
transactions using nonpublic Government
information or allow the improper use of
such information to further any private
interest.
4. An employee shall not, except pursuant to
such reasonable exceptions as are provided
by regulation, solicit or accept any gift or
other item of monetary value from any

A10

person or entity seeking official action
from, doing business with, or conducting
activities regulated by the employee’s
agency, or whose interests may be
substantially affected by the performance
or nonperformance of the employee’s
duties.
5. Employees shall put forth honest effort in
the performance of their duties.
6. Employees shall make no
unauthorized commitments or
promises of any kind purporting to
bind the Government.
7. Employees shall not use public office for
private gain.
8. Employees shall act impartially and not
give preferential treatment to any private
organization or individual.
9. Employees shall protect and conserve
Federal property and shall not use it for
other than authorized activities.
10. Employees shall not engage in outside
employment or activities, including
seeking or negotiating for employment,
that conflict with official Government
duties and responsibilities.
11.Employees shall disclose waste, fraud,
abuse, and corruption to appropriate
authorities.
12. Employees shall satisfy in good faith their
obligations as citizens, including all just
financial obligations, especially those such
as Federal, State, or local taxes that are
imposed by law.

All

13. Employees shall adhere to all laws and
regulations that provide equal opportunity
for all Americans regardless of race, color,
religion, sex, national origin, age, or
handicap.
14. Employees shall endeavor to avoid any
actions creating the appearance that they
are violating the law or the ethical
standards promulgated pursuant to this
order.
The Standards of Ethical Conduct for Employees of
the Executive Branchdink is external) (97 pages) are
available on the Office of Government Ethics (OGE)
web site.

A12

Exhibit 5
Adjudicative Facts for which Petitioner requests
Rule 201(c)(2) Judicial Notice
Petitioner requests this Supreme Court to take
judicial notice of the following United Nations, White
House and State Department releases related to
fact-based questions of law now before this Court:
Item 1:
https://unfccc.int/process-and-meetings/the-parisagreement/the-paris-agreement
“The Paris Agreement is a legally binding
international treaty on climate change. It
was adopted by 196 Parties at COP 21 in
Paris, on 12 December 2015 and entered into
force on 4 November 2016.”
Above issued by Secretariat of the United Nations
Framework Convention on Climate Change, located
at Bonn, Germany, with email at
secretariat@unfccc.int and web site at
http:/unfccc.int.
Item 2:
https://www.whitehouse.gov/briefingroom/statements-releases/2021/01/20/paris-climateagreement/
“I, Joseph R. Biden Jr., President of the
United States of America, having seen and
considered the Paris Agreement, done at
Paris on December 12, 2015, do hereby
accept the said Agreement and every
article and clause thereof on behalf of the
United States of Amerir.a”
Above issued by the White House.

A13

Item 3:
https://news.un.org/en/story/2021/01/1082602
“A new instrument of acceptance of the Paris
Agreement by the US, expressing its consent
to be bound bv the Agreement, was
deposited with the Secretary-General, later in
the day”
Above issued by the United Nations.

Item 4:
https://www.whitehouse.gov/briefingroom/presidential-actions/2021/01/27/executiveorder-on-tackling-the-climate-crisis-at-home-andabroad/
“(h) The Secretary of State, the Secretary
of the Treasury, and the Secretary of Energy
shall work together and with the ExportImport Bank of the United States, the
Chief Executive Officer of the DFC, and the
heads of other agencies and partners, as
appropriate, to identify steps through which
the United States can promote ending
international financing of carbon­
intensive fossil fuel-based energy while
simultaneously advancing sustainable
development and a green recovery, in
consultation with the Assistant to the
President for National Security Affairs.”
Above issued by the White House.

A14

Item 5:
https://www.whitehouse.gov/briefingroom/statements-releases/2021/01/27/fact-sheetpresident-biden-takes-executive-actions-to-tacklethe-climate-crisis-at-home-and-abroad-create-jobsand-restore-scientific-integrity-across-federalgovernment/
• The order directs federal agencies to
eliminate fossil fuel subsidies as consistent
with applicable law and identify new
opportunities to spur innovation,
commercialization, and deployment of clean
energy technologies and infrastructure.
Above issued by the White House
Item 6:
https://www.whitehouse.gov/briefing-room/pressbriefirigs/2021/01/27/press-briefing-by-presssecretary-jen-psaki-special-presidential-envoy-forclimate-john-kerry-and-national-climate-advisorgina-mccarthy-january-27-2021/
Q And just a follow-up on that, perhaps, for
Secretary Kerry: How do you assure
international partners that the U.S. will
stick to whatever you propose after
having seen the Trump administration
take the U.S. out of the Paris Accord?
SECRETARY KERRY: That’s precisely
why we’re going to stick by it, and I think
our word is strong.
Above issued by the White House.

A15

Item 7:
https://www.whitehouse.gov/briefingroom/statements-releases/2021/04/23/fact-sheetpresident-bidens-leaders-summit-on-climate/
“On the first day of the summit, President
Biden upped the ante. He announced the
United States will target reducing
emissions by 50-52 percent by 2030
compared to 2005 levels.
The U.S. International Development Finance
Corporation (DFC) is committing to achieve
a net zero investment portfolio by 2040,
the earliest target of any G7 or G20
development finance institution (DFI), and to
make at least one-third of all its new
investments have a climate nexus beginning
in FY 2023.”
Above issued by the White House.

Item 8:
https://www.whitehouse.gov/briefingroom/statements-releases/2021/04/22/fact-sheetpresident-biden-sets-2030-greenhouse-gas-pollutionreduction-target-aimed-at-creating-good-payingunion-jobs-and-securing-u-s-leadership-on-cleanenergy-technologies/
“On Day One, President Biden fulfilled his
promise to rejoin the Paris Agreement and set
a course for the United States to tackle the
climate crisis at home and abroad, reaching
net zero emissions economy-wide by no
later than 2050.
The United States is not waiting, the costs
of delay are too great, and our nation is

A16

resolved to act now. Climate change poses
an existential threat...”
Above issued by the White House.
Item 9:
https://www.whitehouse.gov/briefingroom/statements-releases/2021/04/23/leaderssummit-on-climate-summary-of-proceedings/
“The United States and other countries
announced ambitious new climate targets
ensuring that nations accounting for half of
the world’s economy have now
committed to the emission reductions
needed globally to keep the goal of limiting
global warming to 1.5-degrees C within reach.
To enshrine this commitment, the United
States submitted a new “nationally
determined contribution” (NDC) under
the Paris Agreement setting an economy­
wide emissions target of a 50-52%
reduction below 2005 levels in 2030.”
Above issued by the White House.
Item 10:
https://www.state.gov/remarks-on-the-urgency-ofglobal-climate-action/
“Under the [Paris} Agreement, each country
committed to do what it determined by
itself it was willing to do, collectively, to
put the world on the right path.”
To meet the challenge, at the Leaders’
Summit in April, the United States
announced an ambitious target of reducing
our emissions over the next ten years, by
2030, we will reduce by 50-52

A17

percent. And President Biden has
announced bold policies to back that up — it’s
not rhetoric, it’s real.
Above issued by the Department of State.
Item 11:
https://www.whitehouse.gov/briefingroom/statements-releases/2021/09/15/presidentbiden-to-host-leader-level-meeting-of-the-majoreconomies-forum-on-energy-and-climate/
President Biden has returned the United
States to the Paris Agreement and
committed at the Leaders Summit to
reduce U.S. emissions 50 to 52 percent
below 2005 levels in 2030, in line with
limiting warming to 1.5 degrees Celsius above
pre-industrial levels.
Above issued by the White House.
Item 12:
https://www.france24.com/en/live-news/20210203french-government-found-guilty-in-landmarklawsuit-over-climate-inaction
In its ruling on Wednesday, the Paris
administrative court recognised ecological
damage linked to climate change and held the
French state responsible for failing to
fully meet its goals in reducing greenhouse
gases.
Above cited by Petitioner in filings with Courts
below.

A18

Item 13:
https://news.un.org/en/story/2021/09/1100242
“G20 nations account for 80% of global
emissions. Their leadership is needed more
than ever. The decisions they take now will
determine whether the promise made at
Paris is kept or broken”, he [UN Guterres]
warned.
Without pledges and financial
commitments from industrialised nations to
make this happen, “there is a high risk of
failure of COP26”, Mr. Guterres continued,
referring to the pivotal UN Climate summit in
Glasgow in six weeks’ timeAbove issued by
United Nations.
Petitioner contends UN seeks pledges and
financial commitments, not mere promises at
October 31 UN Climate summit (Glasgow).
Petitioner asks this Court to find that RUVA
and Executive Branch of Respondent
Government cannot ensure pledges and
financial commitments without binding,
enforceable, enduring commitments that requires
Constitution Article II, Section 2 advice, consent
and two-third Senate approval.

A19

EXHIBIT 6
ORDER FOR INJUNCTIVE RELIEF
(if granted by Supreme Court Order)

CASES BELOW:
NO. 21-40310 UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
NO. 9:21CV13RC/ZH UNITED STATES
DISTRICT COURT for the EASTERN DISTRICT
OF TEXAS, LUFKIN DIVISION, Filed January
19, 2021
Until further notice from this Court,
“PCA” means “Paris Climate AccorcT’and is also called
“Paris Climate Agreement”, “Paris Agreement”,
“Paris Accord”, or “Accord du Paris” in references
cited in above numbered case for Plaintiffs
Complaint.
1.
Respondents, their subordinates, agents,
employees, and all others acting alone or in concert
with them are hereby ordered to not sign any
document purporting to cause USA to re-enter PCA
or enter replacement PCA, or any other material
climate related arrangement with one or more foreign
nations substituting for PCA, without “Advice and
Consent of the Senate” and where “two thirds of the
Senators present concur”, as required by Constitution
Article II, Section 2.

A20

2.
Respondents Biden and Kerry are hereby
ordered to not act in a manner intended to cause, and
instruct their subordinates, agents, employees, and
all others acting for the Executive Branch in concert
with them to not act in a manner intended to cause,
detrimental reliance by members of the USA public
or one or more foreign nations that USA has entered
or will re-enter PCA or enter replacement PCA, or
any other material climate related arrangement with
one or more foreign nations substituting for PCA,
without “Advice and Consent of the Senate” and
where “two thirds of the Senators present concur”, as
required by Constitution Article II, Section 2.
3.
Respondents Biden and Kerry acting alone, or
in concert, and USDT, EPA, and NIEHS acting alone,
and USDT, EPA and NIEHS in concert, and their
subordinates, agents, employees, and all others
acting in concert with them, are hereby ordered to not
assert to the USA public and foreign nations the idea
that they have authority or power to be an
environmental lawmaker or have power to bind USA
to a non-self executing treaty related to the
environment.
4.
Respondents Biden and Kerry acting alone, or
in concert, and USDT, EPA and NIEHS acting alone,
and USDT, EPA, and NIEHS in concert, and their
subordinates, agents, employees, and all others
acting in concert with them are hereby ordered to not
cause USA to be a signatory to any protocol to, or
other agreement regarding 1992 UNFCCC at
negotiations in Kyoto in December 1997 or thereafter
which would: (1) mandate new commitments to limit
or reduce greenhouse gas emissions for UNFCCC

A21

Annex 1 Parties, unless the protocol or other
agreement also mandates new specific scheduled
commitments to limit or reduce greenhouse gas
emissions for Developing Country Parties within the
same compliance period; or (2) result in serious harm
to the U.S. economy, without “Advice and Consent of
the Senate” and where “two thirds of the Senators
present concur”, as required by Constitution Article
II, Section 2L
5.
Respondents Biden and Kerry acting alone, or
in concert, and USDT, EPA, and NIEHS and acting
alone, and USDT, EPA, and NIEHS in concert, and
their subordinates, agents, employees, and all others
acting in concert with them, are hereby ordered to not
spend or transfer funds or make grants, loans or
contracts for activities, directly or indirectly, having
a primary or majority purpose or effect to support or
expand PCA , without “Advice and Consent of the
Senate” and where “two thirds of the Senators
present concur”, as required by Constitution Article
II, Section 2.

A22
6.

Respondents, their subordinates, agents,
employees, and all others acting in concert with them
are hereby ordered to not continue expenditures of
money for activities directly or indirectly in support
of PCA, without ‘Advice and Consent of the Senate”
and where “two thirds of the Senators present
concur”, as required by Constitution Article II,
Section 2.
So Ordered by
UNITED STATES SUPREME COURT
Justice

1

